IN THE SUPREME COURT OF THE UNITED STATES

THOMAS CHRISTOPHER RETZLAFF,
Petitioner

Vv.

JASON LEE VAN DYKE

CERTIFICATE OF SERVICE

I, Daniel R. Ortiz, a member of the Bar of this Court, certify that on this 12th
day of February, 2020, I caused to be served by first-class mail a copy of the
Application for an Extension of Time to File a Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit in the above-captioned case on:

Jason Lee Van Dyke

108 Durango Drive
Crossroads, TX 76227

(469) 964-5346
jasonleevandyke@gmail.com

I further certify that all parties required to be served have been served.

NAB

Daniel R. Ortiz
